June 20, 1995

IG-1

INFORMATION:    Report on "Audit of the Department of Energy's
                Management of Precious Metals"

The Secretary

BACKGROUND:

The subject report is provided to inform you of our finding
and recommendations. The objectives of the audit were to
determine if Departmental and contractor officials were
identifying and disposing of excess precious metals, ensuring
that precious metals custodians adhered to the requirements
contained in the Department's property management regulations,
and developing a coordinated plan for recovering precious
metals from dismantled weapons.

As of September 30, 1994, the Department owned precious metals
worth approximately $88 million. This included about $52
million that was on hand at Departmental sites and
approximately $36 million that could potentially be recovered
from nuclear weapons.

DISCUSSION:

The Department had not developed an effective method for
disposing of $10.3 million of existing excess precious metals.
This disposal problem will be compounded in the future when
$36 million of additional precious metals are recovered from
dismantled nuclear weapons. Retention of excess metals
occurred because the Department did not consider precious
metals management a high priority.

Management concurred with our recommendations and agreed to
identify excess precious metals and develop a more effective
disposal mechanism. Part II of this report provides details
of our finding and Part III includes detailed management and
auditor comments.
                                  (Signed)
                                 John C. Layton
                                 Inspector General
Attachment

cc:    Deputy Secretary
       Under Secretary
       Assistant Secretary for Human
         Resources and Administration
                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL
              AUDIT OF THE DEPARTMENT OF ENERGY'S
                 MANAGEMENT OF PRECIOUS METALS




The Office of Inspector General wants to make the distribu-
tion of its reports as customer friendly and cost effective as
possible. Therefore, this report will be available
electronically through the Internet five to seven days after
publication at the following alternative addresses:

           Department of Energy Headquarters Gopher
                       gopher.hr.doe.gov

        Department of Energy Headquarters Anonymous FTP
                      vm1.hqadmin.doe.gov

 U.S. Department of Energy Human Resources and Administration
              http://www.hr.doe.gov/refshelf.html
Report Number:   DOE/IG-0375         Capital Regional Audit Office
Date of Issue:   June 20, 1995       Germantown, MD 20874
                      U.S. DEPARTMENT OF ENERGY
                     OFFICE OF INSPECTOR GENERAL
                      OFFICE OF AUDIT SERVICES


                 AUDIT OF THE DEPARTMENT OF ENERGY'S
                    MANAGEMENT OF PRECIOUS METALS


Audit Report Number:   DOE/IG-0375

                               SUMMARY


      The U.S. Department of Energy (Department) used precious
metals primarily in the production of nuclear weapons. In
accordance with Strategic Arms Reduction Treaties, the Department
stopped producing nuclear weapons and much of its precious metals
inventory became excess to programmatic need.

      The purpose of the audit was to determine if the Department
and contractor officials were efficiently and effectively
administering this valuable asset. We found that 6 of 11
Departmental organizations were not adequately identifying and
disposing of excess precious metals. At the time of the audit,
the Department had approximately $52 million worth of precious
metals inventory on hand. Included in this inventory was about
$10.3 million that was considered excess. In addition, the
Department has the opportunity to recover precious metals worth
about $36 million from disassembled nuclear weapons that will
also be excess to programmatic need. Although substantial
quantities of excess precious metals existed, property management
officials had not developed effective procedures to dispose of
excess metals through other Government agencies or on the open
market.

      The Director, Office of Contractor Management and
Administration concurred with the audit recommendations and
agreed to identify excess precious metals and develop a more
effective disposal mechanism.


                                             (Signed)

                                         ____________________________
                                         Office of Inspector General

                               PART I

                        APPROACH AND OVERVIEW


INTRODUCTION
      As of September 30, 1994, the U.S. Department of Energy's
(Department) precious metals inventory was estimated to be worth
approximately $52 million. In addition, precious metals
estimated to be worth about $36 million could be recovered from
disassembled nuclear weapons. The purpose of this review was to
determine if Departmental and contractor officials were
efficiently and effectively administering this valuable asset.

      The objectives of the audit were to determine if
Departmental and contractor officials were identifying and
disposing of excess precious metals, ensuring that precious
metals custodians adhered to the requirements contained in the
Department's property management regulations, and developing a
coordinated plan for recovering precious metals from dismantled
weapons.

SCOPE AND METHODOLOGY

      A review was made of the administration of the Department's
precious metals inventory. The review was performed at
Department of Energy Headquarters and 11 cognizant Departmental
organizations who are responsible for managing the Department's
precious metals. At Headquarters, we spoke to officials from the
Offices of Property Management, Defense Programs, Procurement
Operations, and Headquarters Accounting. Additionally, we
visited 5 of the 11 cognizant Departmental organizations:
Albuquerque, Oak Ridge, Oakland, Savannah River Operations
Offices, and Pittsburgh Naval Reactors. As part of our review of
the Albuquerque Operations Office, we visited the Kansas City
Field Office and the Amarillo Area Office. Officials from the
remaining six organizations holding precious metals responded to
internal control questionnaires.

      The Department's management of precious metals was
addressed by evaluating the identification and disposition of
excess precious metals, custodian compliance with the property
management regulations, and the plan for recovering precious
metals from disassembled nuclear weapons. To determine if the
Department was identifying and disposing of excess precious
metals, we verified the performance of annual reviews for excess
precious metals; discussed precious metals utilization with
custodians; and reviewed the operation of precious metals pools.
A determination was also made whether precious metals custodians
adhered to the requirements contained in the Department's
property management regulations by testing compliance with each
requirement. Further, data contained in the Department's
financial information system was reconciled with physical
inventory data provided by management and operating contractors,
nonmanagement and operating prime contractors, and
subcontractors. Finally, we determined if the Department had
developed a coordinated plan for recovering precious metals from
dismantled weapons by ascertaining which sites were responsible
for recovery operations and reviewing the precious metals
recovery plans at these sites.

      The market value of the Department's precious metals was
determined by obtaining information on the total number of grams
for each precious metal held by each cognizant Departmental
organization as of September 30, 1994. We converted the grams to
troy ounces and determined the market value of the precious
metals as of that date. This same approach was used to determine
the market value of the Department's excess precious metals.

      We relied on computer generated data principally to
determine the cognizant Departmental organizations holding
precious metals. Therefore, we did not perform a comprehensive
evaluation of the reliability of this data. The audit was made
in accordance with generally accepted Government auditing
standards for performance audits. This included tests of
internal controls and compliance with laws and regulations to the
extent necessary to satisfy the objectives of the audit. Because
the review was limited, it would not necessarily have disclosed
all internal control deficiencies that may exist.

      The audit fieldwork was performed from April through
December 1994. Exit conferences were held with the Office of
Contractor Management and Administration on April 19, 1995, and
May 25, 1995.

BACKGROUND

      As of September 30, 1994, the Department owned precious
metals worth approximately $88 million. This included about $52
million that was on hand at Departmental sites and approximately
$36 million that could potentially be recovered from nuclear
weapons. The term "precious metals" is defined in the property
management regulations as uncommon and highly valuable metals
characterized by their superior resistance to corrosion and
oxidation. Eight metals fall under this definition: gold,
silver, platinum, palladium, rhodium, iridium, ruthenium, and
osmium. These metals were primarily used in the production of
nuclear weapons. To prevent possible out-of-stock situations
that would have impeded production, the Department stockpiled
these metals in "pools." Due to the effects of inflation and
market forces, the market value of these precious metals at the
time of our audit was substantially greater than their original
cost. Management and operating contractors controlled almost
100 percent of the on-hand precious metals. Over 90 percent of
these precious metals were under the cognizance of the operations
offices located at Albuquerque, New Mexico; Chicago, Illinois;
Oak Ridge, Tennessee; Oakland, California; and Savannah River,
South Carolina.

      In accordance with Strategic Arms Reduction Treaties and
Presidential initiative, the United States stopped producing
nuclear weapons. This initiative changed the Department's
primary mission at nuclear weapons production sites from weapons
production to environmental restoration. With this change, the
primary use of precious metals--to produce nuclear weapons--
ceased to exist and significant quantities of precious metals
were no longer needed for programmatic requirements. In
addition, several weapons systems containing substantial
quantities of recoverable precious metals were scheduled to be
disassembled. The Department plans to disassemble about 10,000
nuclear weapons during the next 10 years. In many cases, the
precious metals contained in these systems were purchased during
the 1950's. Therefore, their aggregate market value was
substantially larger than their aggregate cost.

      In 1981, the Office of Inspector General conducted an audit
of the Department's management of precious metals. As a result
of this audit, the Inspector General recommended that the
Department approve the operation of a centralized precious metals
pool that included all types of precious metals; revise the
property management regulations to include policies and
procedures for the pool's operation; evaluate the need for
separate pooling and reprocessing arrangements; and establish a
program to periodically review precious metals needed by
contractors to determine excess. In 1984, the Office of
Contractor Management and Administration complied with this
recommendation by updating the property management regulations to
include policies and procedures for the performance of annual
reviews for excess precious metals and the operation of a
centralized precious metals pool at the Fernald site.

      The administration of the Department's precious metals pool
was transferred from Fernald to Martin Marietta Energy Systems in
February 1991. At the time of the transfer and through Fiscal
Year 1994, the precious metals pool had a budget of approximately
$1.5 million and operated on a cash basis. The value of the
precious metals in the pool was not permitted to exceed this
amount. Martin Marietta Energy Systems charged the Department's
contractors the average historic value of the precious metals
plus a prorated portion of the pool's administrative costs when
they obtained precious metals from the pool. Departmental
contractors were paid the average historic value less refining
charges for scrap and excess precious metals when they returned
them to the pool. The only source of cash available to the pool
manager was revenue generated from the sale of precious metals to
Departmental organizations and contractors.

OBSERVATIONS AND CONCLUSIONS

      The Department needs to more effectively and efficiently
manage its inventory of precious metals. The audit disclosed
that 6 of 11 Departmental organizations were not adequately
identifying and disposing of excess precious metals. Compounding
this problem was the fact that the Department could recover
substantial quantities of precious metals from disassembled
nuclear weapons that will be excess to programmatic need. In
this regard, officials involved with the Dismantlement Program
developed a plan to recover these precious metals, but property
management and Defense Programs officials had not addressed the
issues relating to their disposal.

      These conditions existed because the Department did not
consider precious metals management a high priority. This was
evidenced by the fact that 6 of 11 Departmental organizations
were not ensuring that existing property management regulations
were followed, and the Department had not revised the property
management regulations to reflect mission   change. At the time of
the audit, the Department had about $10.3   million worth of excess
precious metals on hand. In addition, it    could recover an
additional $17 million of excess precious   metals over the
short-term and about $19 million over the   long-term from
dismantled nuclear weapons.

      To address these issues, the Department must place greater
emphasis on the management of precious metals. First, the
Department should take appropriate steps to ensure that existing
property management regulations are implemented by the using
organizations. This includes ensuring that unauthorized precious
metals pools are discontinued; required annual reviews to
determine the amount of excess are made; and financial records
are reconciled with on-hand inventories so they accurately
portray the precious metals balances within the Department.
Second, the Department needs to change its property management
regulations to permit the Departmental pool to dispose of excess
precious metals to other Government agencies and on the open
market.

      During the course of our review, management initiated
several actions addressing property management issues in general
as well as concerns regarding the management of precious metals.
As part of the program to improve management of materials, the
Secretary of Energy, on August 26, 1994, established a
Departmentwide initiative to develop a Baseline Inventory Report.
The management of precious metals, including possible paths of
disposition, was being reviewed in this study. In addition, the
Department's Office of Contractor Management and Administration
established a task force in November 1994 to identify the extent
of excess precious metals and determine policy and procedural
changes necessary to make Departmental precious metals management
more effective. This task force has recommended converting the
currently "funded" Departmental precious metals pool to a
nonfunded reserve and returning excess precious metals to this
pool for disposal through normal excess channels. Further,
property management officials were in the process of amending the
property management regulations to address the changes in
precious metals use caused by the Department's mission change.
The amended regulations are expected to be reviewed by the
Department's General Counsel during August 1995.

      The Department's current actions combined with the
implementation of the recommendations contained in this report
should result in more effective and efficient management of
precious metals. By implementing the audit recommendations,
excess precious metals will be identified and controlled;
accountability will be improved; and the Department will dispose
of unneeded precious metals. The performance of these actions
could result in reducing the Department's operating costs and,
possibly, the return of significant dollars to the U.S. Treasury.

     Management concurred with our recommendations and agreed to
identify excess precious metals and develop a more effective
disposal mechanism. Management comments are discussed in detail
in Part III of this report.
                               PART II

                     FINDING AND RECOMMENDATIONS

                  Administration of Precious Metals


FINDING

      Departmental organizations and contractors are required by
Departmental property management regulations to maintain only
those precious metals necessary to satisfy programmatic needs and
to establish effective procedures and practices for the
administration and physical control of precious metals. However,
the Department's administration of precious metals was not
effectively and efficiently meeting these requirements.
Specifically, 6 of 11 Departmental organizations did not
adequately identify excess precious metals nor did the Department
have a plan to dispose of excess metals. These conditions
existed because Departmental management did not consider the
administration of the precious metals inventory to be a high
priority. As a result, the Department did not ensure compliance
with existing property management regulations and did not amend
the existing policies and procedures to address the reduction in
demand caused by the change in the Department's mission.
Resolving these issues could result in immediate sales of excess
precious metals valued at approximately $10.3 million and
substantially larger sales of as much as $36 million through the
disposition of precious metals recovered from disassembled
weapons. The revenues from these and future sales could be used
for other appropriate Departmental purposes or they could be
returned to the Treasury.

RECOMMENDATIONS

      We recommend that the Deputy Assistant Secretary,
Procurement and Assistance Management, in coordination with the
Associate Deputy Secretary for Field Management, place greater
emphasis on the management of precious metals by:

      1. Directing cognizant Departmental offices to ensure
compliance with existing Departmental property
management regulations. More specifically, these
organizations should:

          a. discontinue operation of unauthorized precious metals
pools;

         b. ensure that using organizations conduct required
annual reviews to determine excess quantities of
precious metals; and

         c. ensure that the using organizations are providing
accurate, current, and complete information to the
Department's Financial Information System.

     2.   Revising the policies and procedures for the management
         of precious metals that reflect the current mission of
         the Department. Specifically, the Department needs to:

         a. ensure that the Department's centralized precious
            metals pool is able to accept and process excess
            precious metals identified by using organizations;

         b. provide an effective mechanism for the centralized
            Departmental precious metals pool to dispose of
            excess precious metals; and

         c. define current and foreseeable need for precious
            metals in the property management regulations.

MANAGEMENT REACTION

     Management agreed with the audit recommendations. Part III
of this report addresses management and auditor comments.


                        DETAILS OF FINDING

     Department of Energy Property Management Regulation
109-27.53 establishes policies, principles, and guidelines for
Departmental organizations and contractors managing
Department-owned precious metals. To implement this regulation,
the Department requires that its organizations and contractors
establish effective procedures and practices for the
administrative and physical control of precious metals.
Specifically, Departmental and contractor officials are required
to annually review the quantity of precious metals on hand to
determine if this quantity is in excess to programmatic
requirements; establish a program for the recovery of precious
metals; and implement adequate internal controls to safeguard the
precious metals.

     In addition, Departmental regulations require the operation
of a central precious metals pool. The purpose of this pool is
to recycle Department-owned precious metals within the Department
at the minimum cost to participants. Precious metals not needed
for current and foreseeable requirements are to be promptly
reported and returned to the central precious metals pool. To
assist in this determination, the regulations require the
precious metals control officer of each using organization to
annually prepare and submit a forecast of anticipated withdrawals
from and returns to the Department's precious metals pool.

MANAGEMENT OF PRECIOUS METALS

     The Department and contractor administration of precious
metals at 6 of 11 organizations was not effective and efficient
because excess metals were on hand, additional excesses were
expected to be recovered, and there was no method of disposing of
these excess precious metals. The Department and its contractors
are required to identify and return excess Government-owned
precious metals in accordance with the Department's property
management regulations. However, many using organizations had
not adequately identified on-hand excess precious metals. Even
those organizations who had properly identified excess precious
metals were unable to return them because the Department had not
developed a plan to dispose of the excess. The latter issue is
of particular importance, since the Department could recover
substantial quantities of precious metals from disassembled
weapons.

Excess Precious Metals On Hand

     Property management regulations require Departmental
organizations and contractors holding precious metals to annually
review the quantity of precious metals on hand to determine if
this quantity exceeds programmatic need. Many using
organizations, however, had not conducted valid reviews for
programmatic need since the cessation of weapons production. In
response to audit inquiries, property management officials at the
using organizations reviewed the need for their precious metals
inventories. As a result of these reviews, precious metals
valued at approximately $10.3 million or 20 percent of the
present inventory were reported as excess to programmatic need.
The following table shows the organizations identifying excess
precious metals on hand as of September 30, 1994, and the value
of excess they reported.

                             TABLE 1
          VALUE OF PRECIOUS METALS IDENTIFIED AS EXCESS


                                             Market Value of
  Departmental                           Excess Precious Metals
  Organization                          As of September 30, 1994
  DDDDDDDDDDDD                          DDDDDDDDDDDDDDDDDDDDDDDD
  Albuquerque                                   $4,002,311
  Chicago                                          205,260
  Idaho                                             29,123
  Nevada                                            51,458
  Oak Ridge                                      2,317,641
  Oakland                                        2,870,025
  Pittsburgh Energy Technology Center               18,389
  Pittsburgh Naval Reactors                          9,815
  Richland                                         217,995
  Savannah River                                   518,073
  Schenectady Naval Reactors                        14,584
                                                DDDDDDDDDD
                    Total Excess               $10,254,674
                                                MMMMMMMMMM

Additional Excess Precious Metals

     The audit disclosed additional excess precious metals on
hand at several of the sites where reviews for programmatic need
were made. Departmental regulations stipulate that precious
metals not required for current and foreseeable need be returned
to the precious metals pool. While performing tests of internal
controls, we asked precious metals custodians whether they had
justified retaining their precious metals during the annual
review for excess conducted by the precious metals control
officer. We were informed by the custodians at several sites
that the precious metals control officers were not performing
required annual reviews to determine if any excess metals were on
hand. Rather, they allowed the custodians and their program
managers to complete a form letter stating they needed their
current inventory. In many instances, the custodians told us
they were not required by the precious metals control officer to
justify retaining their precious metals inventories based on
programmatic need.

     Based upon further analysis, we determined that 21 of 80 (26
percent) custodians were holding precious metals that had not
been used for over 2 years. None of the 21 custodians provided
adequate justification, i.e., programmatic need, for retaining
their precious metals. Table 2 shows by site the custodians that
were visited and those custodians whose inventory of precious
metals had not been used during the last 2 years.

                             TABLE 2
                  UTILIZATION OF PRECIOUS METALS
         BY CUSTODIANS DURING FISCAL YEARS 1993 AND 1994

 Cognizant                       Custodians           Custodians
Departmental                     Visited At           Reporting
Organization                      Each Site             No Use
DDDDDDDDDDDD                     DDDDDDDDDD           DDDDDDDDDD
Albuquerque                         26                     7
Oak Ridge                           29                     7
Oakland                             11                     3
Pittsburgh Naval Reactors            9                     0
Savannah River                       5                     4
                                 DDDDDDDDDD           DDDDDDDDDD
                   Totals           80                    21
                                 MMMMMMMMMM           MMMMMMMMMM

     The audit also noted that the Department expects to recover
additional metals from disassembled nuclear weapons. Defense
Programs officials responsible for disassembling the major
components containing precious metals told us that although they
had a recovery plan, they were waiting for guidance from the
Department on how to dispose of the excess metals. The Office of
Contractor Management and Administration was not aware that
precious metals were or potentially could be recovered from
disassembled nuclear weapons. As a consequence, this office did
not develop a plan for disposal of excess precious metals
recovered from nuclear weapons because program officials had not
communicated to them any information regarding the recovery of
excess precious metals from the Dismantlement Program.

No Effective Means to Dispose of Excess

     Despite the excess, the Department had not developed an
effective mechanism for the Departmental pool to dispose of
excess precious metals on hand or the additional excess that
could be recovered from disassembled nuclear weapons. Under
existing Departmental regulations, precious metals were to be
recycled within the Department. However, with the cessation of
weapons production, demand for precious metals declined and much
of the on-hand inventory was excess to programmatic need. In
addition, weapons scheduled for disassembly contained substantial
quantities of recoverable precious metals. Recovering these
precious metals would greatly increase the Department's
inventory. Despite these conditions, officials from the Offices
of Contractor Management and Administration and Headquarters
Accounting told us that the Department did not have a mechanism
for disposing of the excess to other Government agencies or the
open market.

     The lack of an effective mechanism for the pool to dispose
of excess precious metals was highlighted by the problems
encountered by a using organization attempting to dispose of
about $5.5 million of excess. When a weapons system was
terminated, the using organization attempted to return the
precious metals purchased for production to the Departmental pool
as required by the existing property management regulations.
However, the pool could not accept this amount because of budget
limitations. In response to the using organization's request,
the Office of Contractor Management and Administration granted a
waiver from the requirement to return the metals to the
Departmental pool but advised the using organization that the
Department's Reportable Excess Automated Property System should
be used to make the disposal. In conjunction with the cognizant
operations office, the using organization determined that this
approach was not effective. Rather than follow the Departmental
procedures prescribed by the Office of Contractor Management and
Administration, the using organization determined that it would
be more timely and cost effective to sell the excess on the open
market. The Chief Financial Officer for the cognizant operations
office agreed with the using organization and subsequently
authorized the open market sale of their on-hand excess.

PRIORITIES AFFORDED PRECIOUS METALS MANAGEMENT

     Weaknesses in precious metals administration occurred
because Department and contractor management did not consider
precious metals management a high priority. Officials from
several Departmental elements told us that precious metals were
not a high priority because of the relatively small dollar value
of precious metals inventory on the Department's balance sheet.
Officials from the Office of Contractor Management and
Administration, Office of Headquarters Accounting, and the Office
of Military Applications also stated that inaction was due to
limited resources such as money and staff, the small value of
precious metals in relation to the total value of the
Department's personal property, and limited guidance.

     Officials from the operations offices confirmed that the
Department did not consider the management of precious metals to
be an important issue by stating that the Department had not
addressed problems they had identified relating to the
disposition of excess precious metals. For example, officials
from using organizations at one operations office cited problems
with the current operation of the Department's precious metals
pool which hindered disposition and acquisition of precious
metals--very slow processing times for accepting scrap metal and
regularly out-of-stock precious metals with a high demand, such
as gold.

     The manager of the Department's precious metals pool was
aware of these problems and pointed them out to Oak Ridge
Operations Office officials in reports on the Precious Metals
Pool and Recovery Program for Fiscal Years 1992, 1993, and 1994.
In these reports, the manager identified problems associated with
the budget limit; insufficient quantities of the most requested
metals due to contractors failing to return excess; and the fact
that some contractors did not use the Department's authorized
pool. The Oak Ridge Operations Office forwarded the 1992 report
to the Office of Contractor Management and Administration and
continued to inform Headquarters officials of the pool's
operating problems in 1993 and 1994. In response to these
reports, officials from the Office of Contractor Management and
Administration and Oak Ridge Operations Office discussed closing
the Department's pool, and on two occasions, issued letters to
that effect. However, no action was taken to correct the cited
problems until November 1994 when the Office of Contractor
Management and Administration established a task force to
identify the extent of excess precious metals and determine
policy and procedural changes necessary to make precious metals
management more effective.

Noncompliance With Existing Departmental Regulations

     As a consequence of the low priority given to the management
of precious metals, Departmental managers did not ensure
compliance with existing property management regulations. For
example, unauthorized precious metals pools were permitted to
exist; reviews for excess precious metals were not performed;
validation of information submitted to the Financial Information
System was inadequate; and semiannual physical inventories were
not conducted.

     Unauthorized Precious Metals Pools. The audit disclosed
that Departmental officials allowed unauthorized precious metals
pools to exist even though their operation was in violation of
property management regulations. Since 1984, the Department's
Property Management Regulation 109-27.5306 required operation of
a centralized precious metals pool. However, three unauthorized
pools were in operation at the time of our review. These
unauthorized pools were operated by contractors under the
cognizance of Albuquerque, Oak Ridge, and Oakland Operations
Offices. The precious metals contained in these pools were
valued at about $2.3 million or 4.5 percent of the $52 million of
on-hand precious metals.

     Additionally, using organizations purchased higher priced
precious metals on the open market because these organizations
were not aware of the type and quantity of precious metals
existing in the unauthorized pools. For example, during Fiscal
Year 1994, an using organization under the cognizance of the
Albuquerque Operations Office made purchases of precious metals
on the open market for $100,787. These same metals were
available in an unauthorized precious metals pool for only
$21,837. Similarly, another using organization under the
cognizance of Albuquerque Operations Office purchased precious
metals on the open market for $311,923 that were available in an
unauthorized pool for only $62,221.

     Nonperformance of Annual Reviews. Excess precious metals
were also allowed to accumulate because some Departmental
organizations and contractors did not ensure that annual reviews
for excess precious metals were performed. Based on the 1981
Office of Inspector General report, the Department revised the
property management regulations and required precious metals
control officers to annually review precious metals holdings to
determine excess. We identified six organizations who had not
performed an annual review in Fiscal Year 1994. For example, at
one site, we were told that an annual review for excess precious
metals had never been performed. During September 1994, this
organization conducted a review and classified about $2.9 million
of its $9.4 million precious metals inventory as excess. Another
organization reported that due to lack of funding, the precious
metals control officer position had been vacant since October 1,
1993. This organization subsequently conducted a review of its
precious metals inventory and concluded that practically all of
the inventory was excess to programmatic need.

     Inaccurate Data. Departmental organizations were also not
validating the accuracy of the data reported to the Department's
Financial Information System. The Department's property
management regulations require that "the dollar value of physical
inventory results shall be reconciled with the financial
records." However, the precious metals inventory values reported
in the Department's Financial Information System did not, in
several cases, agree with onsite inventories. For example,
Headquarters Procurement Operations incorrectly reported that
they were responsible for precious metals with a historic value
of $394,594, when in fact they were only responsible for precious
metals valued at $48,741. This occurred because Headquarters
Procurement Operations did not take into account the precious
metals that had been expended over the years. At Fernald,
management did not report having any precious metals on hand,
when in fact they had metals with a current value of $558,204.
Similar problems were found in financial data reported for
nonmanagement and operating prime contractors.

     Semiannual Physical Inventories. Property management
regulations also required Departmental organizations and their
management and operating contractors to conduct semiannual
physical inventories. The inventories were to be witnessed by a
precious metals control officer. However, one operations office
did not ensure that semiannual physical inventories were
conducted. For example, one contractor for the operations office
did not conduct semiannual physical inventories of precious
metals loaned to five of its offsite subcontractors. Precious
metals had been loaned to one of these subcontractors for over 15
years. In another case, a nonmanagement and operating prime
contractor was only conducting physical inventories of precious
metals every 5 years.

Procedures Not Amended to Reflect Mission Change

     The Department did not amend property management regulations
to address the decreased demand for precious metals caused by the
cessation of weapons production. Specifically, the Department
did not change the operation of the Departmental precious metals
pool from a recycle function to both a recycle and disposal
function. Also, the property management regulations did not
provide for policies and procedures that addressed the disposal
of precious metals to other Government agencies or on the open
market. Finally, the Department did not develop policies and
procedures to clarify the definition of current and foreseeable
need for the retention of precious metals.

     Operation of the Precious Metals Pool. Budgetary and
regulatory constraints had a substantial affect on the ability of
the authorized pool to process precious metals. As mentioned
previously, the authorized pool had a budget limit of about $1.5
million. This limit was sufficient prior to the cessation of
weapons production. However, after the mission change, the
demand for precious metals decreased and the amount of excess
metals that could be returned to the Departmental pool increased
substantially. Nonetheless, Departmental officials did not
address the fiscal constraints that prevented precious metals
from being returned to the pool. With the pool unable to accept
excess, using organizations had no alternative method of
disposing of unneeded metals.

     Disposal of Precious Metals. Departmental officials also
did not amend the property management regulations to provide for
an effective mechanism for the authorized pool to dispose of
unneeded precious metals to other Government agencies or on the
open market. Departmental policies and procedures only provided
guidance for recycling excess precious metals within the
Department of Energy. Officials from the Offices of Contractor
Management and Administration, Defense Programs, and Headquarters
Accounting indicated that the current property management
regulations did not contain specific procedures for the disposal
of excess precious metals to other Government agencies or the
open market.

     Current and Foreseeable Need. Another factor contributing
to the excess was that property management officials did not
clearly define current and foreseeable need in the Department's
property management regulations. This permitted managers at each
using organization to interpret what constitutes current and
foreseeable need differently. For example, several program
managers justified retaining precious metals for foreseeable need
based on the belief they would use them in the performance of
contracts not yet approved. Conversely, other property
management officials believed that precious metals were excess
unless their retention was justified by specific programmatic
need. Further, property management officials at several sites
told us they did not question program managers' justifications
for retaining precious metals due to insufficient knowledge of
program needs.


DISPOSITION OF EXCESS PRECIOUS METALS

     Substantial savings can be achieved through the elimination
of excess precious metals from the Department's inventory.
However, the Department needs to develop procedures which will
allow for an effective and efficient disposition mechanism. The
Department has determined that at least $10.3 million worth of
precious metals on hand is in excess of programmatic need. The
authorized precious metals pool or using organizations could sell
the on-hand excess precious metals with the proceeds being used
to offset operating costs of user organizations or returned to
the U.S. Treasury.

     Substantially greater savings could be achieved through the
disposition of precious metals recovered from disassembled
weapons. Current plans simply call for the recovery of these
metals. This course of action will only add to the Department's
excess and increase inventory control and accountability
problems. Through the development of a long-range disposition
plan, we estimate that the Department could potentially recover
and dispose of about $36 million worth of precious metals from
disassembled weapons.

                                PART III

                    MANAGEMENT AND AUDITOR COMMENTS

     The Office of Contractor Management and Administration
agreed with the finding and recommendations. A summary of
management's comments and our replies follows.

Finding.     Administration of Precious Metals

     We recommend that the    Deputy Assistant Secretary,
Procurement and Assistance    Management, in coordination with the
Associate Deputy Secretary    for Field Management, place greater
emphasis on the management    of precious metals by:

Recommendation 1

     Directing cognizant Departmental offices to ensure
compliance with existing Departmental property management
regulations. More specifically, these organizations should:

           a. discontinue operation of unauthorized precious metals
pools;

     b. ensure that using organizations conduct required
annual reviews to determine excess quantities of
precious metals; and

     c. ensure that the using organizations are providing
accurate, current, and complete information to the
Department's Financial Information System.
     Management Comments. Management concurred adding that a
memorandum will be issued to all Departmental field
organizations, area offices, and contractors requiring the
immediate dissolution of all unauthorized precious metals
pools, reemphasizing the mandatory performance of annual
reviews determining excess amounts of metals while requiring
all excess metals to be immediately returned to the
Departmental precious metals pool, and asking that all
information provided to the Financial Information System be
current, accurate, and complete.

     Auditor Comments.   Management's actions are responsive to
our recommendation.

Recommendation 2

     Revising the policies and procedures for the management of
precious metals that reflect the current mission of the
Department. Specifically, the Department needs to:

     a. ensure that the Department's centralized precious
metals pool is able to accept and process excess
precious metals identified by using organizations;

     b. provide an effective mechanism for the centralized
Departmental precious metals pool to dispose of excess
precious metals; and

     c. define current and foreseeable need for precious metals
in the property management regulations.

     Management Comments. Management concurred with
recommendation 2.a. by stating that the Department was
currently addressing the problems associated with the ability
of the Department's precious metals pool to accept and process
excess precious metals. Once decisions are made on how best to
operate the Departmental pool, a memorandum will be sent out to
all field organizations announcing any related changes and
reiterating the requirement to use the Departmental pool.

     For Recommendation 2.b., management stated that the
Federal Property Management Regulations (FPMR) provide a
process for disposing of excess personal property, including
precious metals, to other Federal agencies.

     Further discussions with the Office of Contractor
Management and Administration regarding the disposal issue
resulted in additional comments. Management explained that the
Department's precious metals pool was originally set up to
recycle metals within the Department while retaining a minimal
supply of excess precious metals. The pool has focused on
recycling of excess metals because historically there has been
a continuing need for them within the Department. Recent
mission changes within the Department have created an abundance
of excess precious metals in need of disposition. The
requirement for the return of all excess precious metals to the
pool for recycling or disposition will be reemphasized.

     Management indicated that the reemphasis would consist of
the following actions. Management would revise the
Department's property management regulation to read, "The
purpose of the precious metals pool is to recycle DOE-owned
precious metals and to dispose of DOE-owned precious metals
that are excess to the needs of the Department. When the
precious metals pool is operational, all excess metals must be
returned to the pool. If the pool, however, is not functional
then such metals are to be disposed of through the normal
excess process." In addition, management would issue a letter
to the Oak Ridge Operations Office requiring that the precious
metals pool procedures reflect the excess disposal function.

     Concluding, management pointed out that all proposed
actions by their office in response to the audit report's
recommendations depend upon the future of the precious metals
pool. Management is presently working to resolve the
identified problems with the operation of the precious metals
pool so that its existence or closure will not be an issue in
the future. Some actions that are being considered to rectify
the pools operational problems include continuing a cash basis
operation with sufficient funding, discontinuing the cash basis
operation and going to a nonfunded operation, or disbanding the
pool operation altogether. Whichever action is ultimately
chosen will determine how excess precious metals are recycled
and disposed of within the Department.

     For Recommendation 2.c., management did not believe that
the task for defining the Department's current and foreseeable
need for precious metals belongs in the personal property
regulatory process. This responsibility lies with the various
Departmental programs. However, management proposed revising
the personal property management regulations to include, "All
excess precious metals must be returned to DOE's precious
metals pool. The pool is entirely dependent on metal returns;
therefore, metal inventories should be maintained on an
as-needed basis, and any excess metals must be returned to the
pool for recycling."

     Auditor Comments. Management's planned actions are
considered responsive to our recommendations. However,
management suggests in their comments they are considering
discontinuing operation of the Departmental pool. Based on our
audit work, it appears that continued operation of a
centralized precious metals pool is in the best interest of the
Department at this time. Continued operation of the
centralized precious metals pool, with implementation of our
recommendations, will improve control and accountability over
these valuable assets as well as providing for more effective
inventory management. Centralized control and accountability
protects against loss, theft, and unnecessary purchases while
reducing refining and administrative costs through elimination
of redundant management activities. Giving the pool manager
authority to dispose of unneeded excess precious metals on the
open market provides for more effective inventory management.
The Department's property management regulation requires using
organizations to annually prepare forecasts of their precious
metals needs. Using these forecasts along with the authority
to dispose of unneeded excess, the pool manager could establish
and maintain an optimum mix of the most used precious metals
while selling those metals no longer needed by the Department
to outside organizations. Therefore, management should
strongly support continued operation of the Departmental pool
at this time.


                                                 IG Report No. DOE/IG-0375

                       CUSTOMER RESPONSE FORM

     The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make our reports
as responsive as possible to our customers' requirements, and therefore
ask that you consider sharing your thoughts with us. On the back of
this form, you may suggest improvements to enhance the effectiveness of
future reports. Please include answers to the following questions if
they are applicable to you:

     1.   What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection would
have been helpful to the reader in understanding this report?

     2.   What additional information related to findings and recommenda-
tions could have been included in this report to assist management
in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made
this report's overall message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have
taken on the issues discussed in this report which would have been
helpful?

     Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

     Name                                        Date

     Telephone                                   Organization

     When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586D0948, or you may mail it to:

            Office of Inspector General (IG-1)
            Department of Energy
            Washington, D.C. 20585
            ATTN: Customer Relations

     If you wish to discuss this report or your comments with a staff member
of the Office of Inspector General, please contact Wilma Slaughter at
(202) 586D1924.
